audit report
Return to the USDOJ/OIG Home Page
The Immigation and Naturalization Service's Timelinessin Inspecting Passengers Arriving at U.S. Airports
Report No. 99-10
March 1999
Office of the Inspector General
EXECUTIVE SUMMARY
Serious concerns about passenger inspection delays at U.S. airports caused the Congress in 1990 to enact legislation requiring the Immigration and Naturalization Service (INS) to inspect passengers within 45 minutes.  The legislation also requires the INS to annually report its success rate at meeting the time standard.  Congressional reports issued in 1991 sought to expand the scope of the time standard to the entire Federal Inspection Services (FIS) process; however, the Congress did not actually take the steps to amend the legislation.  Thus, for the past several years, two interpretations have existed regarding the applicability of the time standard  the INS has always claimed the legislated 45 minutes for its inspections, yet the U.S. Customs Service and airline carriers have interpreted the standard to be applicable to the entire FIS process.  Test results at our sampled airports showed that passengers completed their INS inspections within a range of approximately 7 to 22 minutes.  Thus, we believe that the INS is in a good position to work with the other FIS agencies to achieve total FIS processing within 45 minutes.
The INS has been measuring inspection processing times since shortly after the enactment of the 45-minute standard and associated reporting requirement; however, the INS has been measuring the time it takes inspectors to inspect an entire flight, rather than the time it takes an individual passenger to complete his or her inspection.  Further, inspection time measurements rely on highly subjective data.  As a result, INS management has been making decisions, and reporting inspection success rates to the Congress and others, without knowing whether the data on which the decisions and rates were based were representative of actual passenger inspection times.  The INS needs the capability to objectively measure and routinely monitor its success at achieving the legislated inspection time standard.
We developed a methodology to measure the timeliness of passenger inspections that uses INS data in new ways.  The most significant benefit to the methodology we developed, besides providing the performance data needed to satisfy the Congressional reporting mandate, is that the results are computer generated.  Thus, if the INS adopts this methodology or another methodology capable of being automated, INS managers will have the necessary performance data readily available to monitor inspection timeliness on an overall, airport-specific, terminal-specific, or inspection-type basis throughout the year.
Our tests of inspection timeliness showed that approximately 96 percent of arriving passengers at our sampled airports were inspected within the 45-minute standard.  Test results also showed that the INS adjusted its resource levels to accommodate daily peak arrival periods so that the negative effect on the traveler due to multiple flights arriving at the same time was almost nonexistent.  In our judgment, the 4 percent rate of noncompliance with the time standard is not a significant weakness because the inspection process includes factors beyond the INS' control.
We discussed our overall results, conclusions, and recommendations with the INS Assistant Commissioner for Inspections.  He agreed that the recommendations were reasonable to address the identified weaknesses.  Additionally, we provided draft copies of this report to the INS.  The INS concurred with all of our recommendations and provided comments on the actions completed and planned to implement the recommendations.
Our audit objectives, scope, and methodology are described in Appendix I.  Background information on the INS' inspection process is provided in the Introduction section.  The details of our work are contained in the Findings and Recommendations section.  The INS' comments on the recommendations are included in Appendix III, and our summary of the actions needed to close the audit is contained in Appendix IV.